               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE
                                               




               South Florida District
             Vulnerability Assessment

                        Audit Report




                                              October 22, 2013

Report Number IT-AR-14-001




     We did not post this report due to concerns with information
           protected under the Freedom of Information Act
